IN THE
Supreme Court of the United States

JUAN TINOCO-GARCIA,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Nora K. Hirozawa, appointed to represent the petitioner under the Criminal
Justice Act, certify that on December 23, 2020, one copy of the Petition for a Writ of
Certiorari, the Appendix, and a Motion to Proceed Jn Forma Pauperis in the above-
captioned case were served by first-class mail, postage prepaid, to respondent’s
counsel. I further certify that all parties required to be served have been served.
Service was addressed as follows:

Jeffrey B. Wall
Solicitor General of the United States
Room 5614

Department of Justice

950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001

 
 
 
 
    
   
 

K. HIROZAWA
lederal Defenders of San Diego, Inc.
25 Broadway, Suite 900

San Diego, California 92101
Telephone: (619) 234-8467

Attorneys for Petitioner
